                           SOCIAL SECURITY
                                  November 9, 2005


The Honorable Jo Anne B. Barnhart
Commissioner

Dear Ms. Barnhart:

In November 2000, the President signed the Reports Consolidation Act of 2000
(Pub. L. No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing
Federal agencies and the agencies’ progress in addressing them. This document
responds to the requirement to include this Statement in the Social Security
Administration’s Fiscal Year 2005 Performance and Accountability Report.

In September 2004, we identified six significant management issues facing the Social
Security Administration for Fiscal Year (FY) 2005.

   •   Social Security Number Integrity and Protection
   •   Management of the Disability Process
   •   Improper Payments
   •   Internal Control Environment and Performance Measures
   •   Critical Infrastructure Protection/Systems Security
   •   Service Delivery
•
I congratulate you on the progress you have made during FY 2005 in addressing these
challenges. My office will continue to focus on these issues in the current FY. I look
forward to working with you in continuing to improve the Agency’s ability to address
these challenges and meet its mission efficiently and effectively. I am providing you
with the OIG assessment of these six management challenges.

                                                  Sincerely,



                                                  S
                                               Patrick P. O’Carroll, Jr.
                                                  Inspector General
 Inspector General Statement
             on the
Social Security Administration’s
Major Management Challenges




         November 2005
           A-02-06-16050
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
         Social Security Number Integrity and Protection
In Fiscal Year (FY) 2005, the Social Security Administration (SSA) issued over
17 million original and replacement Social Security number (SSN) cards and received
approximately $588 billion in employment taxes related to earnings under assigned
SSNs. Protecting the SSN and properly posting the wages reported under SSNs are
critical to ensuring eligible individuals receive the full benefits due them.

To do so, SSA must employ effective front-end controls in its enumeration process. We
applaud the significant strides the Agency has made over the past several years to
ensure SSN integrity. Nevertheless, throughout society, incidences of SSN misuse
continue to rise. Accordingly, to further protect SSN integrity, we believe SSA should
(1) encourage public and private entities to limit collection and use of the SSN as a
personal identifier, (2) continue to address identified weaknesses in its information
security environment to better safeguard SSNs, and (3) continue to coordinate with
partner agencies to pursue any data sharing agreements that would increase data
integrity.

Another important part of ensuring SSN integrity is the proper posting of earnings
reported under SSNs. Properly posting earnings ensures eligible individuals receive the
full retirement, survivor and/or disability benefits due them. The Earnings Suspense File
(ESF) is the Agency’s record of annual wage reports for which wage earners’ names
and SSNs fail to match SSA’s records. As of October 2004, SSA had posted
approximately 9 million wage items to its ESF for Tax Year 2002, which is the latest
available data, representing about $56 billion in wages. This was before some planned
edits, which may have further reduced this number.

While SSA has limited control over the factors that cause the volume of erroneous wage
reports submitted each year, there are still areas where the Agency can improve its
processes. For example, SSA can improve wage reporting by encouraging greater use
of the Agency’s SSN verification programs. SSA also needs to coordinate with other
Federal agencies with separate, yet related, mandates.

Another area of concern related to SSN integrity is the use of nonwork SSNs by
noncitizens for unauthorized employment in the United States. SSA assigns nonwork
SSNs to noncitizens lacking appropriate work authorization only if they can provide
evidence of a valid nonwork reason. In recent years, SSA has strictly limited the
assignment of such numbers. Furthermore, SSA monitors noncitizens who show
earnings under a nonwork SSN and reports this information to the Department of
Homeland Security (DHS). Nonetheless, our audits have noted a number of issues
related to nonwork SSNs, including (1) evidence provided to obtain a nonwork SSN,
(2) reliability of nonwork SSN information in SSA’s records, (3) the significant volume of
wages reported under nonwork SSNs, and (4) the payment of benefits to noncitizens
who qualified for their benefits while working in the country without proper authorization.



IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                       1
In March 2004, Congress placed new restrictions on receipt of SSA benefits by
noncitizens who are not authorized to work in the United States. Under the Social
Security Protection Act (SSPA) of 2004 (Pub. L. No. 108-203), a noncitizen whose SSN
was assigned on or after January 1, 2004, must have been issued a SSN for work
purposes on or after this date or been admitted to the United States at any time as a
nonimmigrant visitor for business or as an alien crewman to be entitled to Title II or End-
Stage Renal Disease Medicare benefits based on the noncitizen’s earnings.

SSA Has Taken Steps to Address this Challenge

SSA has taken steps to improve controls within its enumeration process. SSA verifies
all immigration documents before assigning SSNs to noncitizens. Additionally, SSA
requires (1) mandatory interviews for all original SSN applicants age 12 and over
(lowered from age 18) and (2) evidence of identity for all children, regardless of age. In
addition, SSA established Enumeration Centers in Brooklyn, New York and Las Vegas,
Nevada that focus exclusively on assigning SSNs and issuing SSN cards. Also, in
FY 2005, SSA implemented new systems enhancements that simplified the
interpretation of, and compliance with, SSA’s complex enumeration policies.

In addition to these improvements, SSA is planning to implement several other
enhancements that will better ensure SSN protection. These endeavors were required
by the Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004
(Pub. L. No. 108-458). SSA’s plans include (1) restricting the issuance of multiple
replacement Social Security cards to 3 per year and 10 in a lifetime; (2) requiring
independent verification of any birth record submitted by an original SSN applicant,
other than for purposes of enumeration at birth; and (3) coordinating with DHS to further
improve the security of Social Security cards and numbers.

SSA has also taken steps to reduce the size and growth of the ESF. In June 2005, the
Agency expanded its voluntary Social Security Number Verification Service (SSNVS) to
all interested employers nationwide. SSNVS allows employers to verify the names and
SSNs of employees before reporting their wages to SSA.

SSA coordinates with other agencies to encourage improved wage reporting. For
example, SSA participates in a joint program with DHS, called the Basic Pilot, which
verifies the names and SSNs of employees as well as their citizenship and authorization
to work in the economy. In December 2004, the Basic Pilot program was made
available to employers nationwide. Furthermore, the Agency is also collaborating with
the Internal Revenue Service to achieve more accurate wage reporting by employers
with a high volume of wage items in the ESF.

SSA is also in the process of modifying the information it shares with employers. Under
IRTPA, the Agency is required to add both death and fraud indicators to SSNVS for
employers, State agencies issuing driver’s licenses and identity cards, and to other
verification routines as determined appropriate by the Commissioner of Social Security.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                      2
                 Management of the Disability Process
SSA needs to improve critical parts of the disability process – determining disabilities,
the accuracy of disability payments, and the integrity of the disability programs. In
January 2003, the Government Accountability Office (GAO) added modernizing Federal
disability programs—including SSA’s—to its high-risk list. GAO did this, in part,
because of outmoded concepts of disability, lengthy processing times, and decisional
inconsistencies.

SSA needs to continue to improve the process used to determine claimant disability by
focusing on initiatives that will improve the timeliness and quality of its services. For
example, the Office of Hearings and Appeals’ (OHA) average processing time has
increased significantly from 308 days in FY 2001 to 415 days in FY 2005. Further, the
hearings pending workload for FY 2005 was 708,164 cases, whereas it was
392,387 cases in FY 2001. This represents an 80 percent increase from FY 2001.
SSA’s efforts to address its pending workload did not meet the goals established for
FY 2005. In FY 2005, SSA processed 519,359 hearings, approximately 99 percent of
its goal of 525,000. Lastly, SSA’s productivity goal in this area for FY 2005 was to
process 103 hearings per work year. In FY 2005, it processed 101.7 hearings per work
year, under its goal but over the 100.2 hearings processed per work year reached in
FY 2004.

Another area SSA needs to improve is ensuring the correct benefits are paid to the
correct individuals. Continuing disability reviews (CDR) are critical to determining
whether a disabled beneficiary continues to be eligible for benefits. In an April 2005
report, we estimated that approximately $12.4 million was overpaid to about
11,880 recipients because SSA did not previously consider all of their earnings when
calculating Supplemental Security Income (SSI) payment amounts. We also estimated
that, if the Agency resolved the earnings discrepancies, approximately an additional
$74.7 million in overpayments to about 61,380 recipients would have been recognized.

Fraud is an inherent risk in SSA’s disability programs. Key risk factors in the disability
program are individuals who feign or exaggerate symptoms to become eligible for
disability benefits or who, after becoming eligible to receive benefits, knowingly fail to
report medical improvements or work activity. For example, one beneficiary with a
diagnosis of affective disorders (a psychiatric impairment) started receiving disability
benefits in 1997. Office of the Inspector General (OIG) investigators observed activities
that seemed inconsistent with the beneficiary’s statements regarding limitations due to
the beneficiary’s impairment; and therefore, we requested SSA conduct a CDR. As a
result of this CDR, SSA found that medical improvement had occurred and stopped the
benefits—resulting in 12 months of savings of $6,948. If SSA had not conducted the
CDR at the time of our request, benefits would have continued to be paid to this
individual.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                      3
SSA Has Taken Steps to Address this Challenge

On July 27, 2005, the Commissioner announced proposed regulations in the Federal
Register which outlined her plan to improve the disability process. The proposed
regulations would:

   •   Establish a Quick Disability Determination process through which State agencies
       will expedite initial determinations for claimants who are clearly disabled;
   •   Create a Federal Expert Unit to augment and strengthen medical and vocational
       expertise for disability adjudicators at all levels of the disability determination
       process;
   •   Eliminate the State agency reconsideration step and terminate the disability
       prototype that SSA is currently conducting in 10 States;
   •   Establish Federal reviewing officials to review State agency initial determinations
       upon the request of claimants;
   •   Preserve the right of claimants to request and be provided a “de novo” hearing,
       which will be conducted by an Administrative Law Judge (ALJ);
   •   Close the record after the ALJ issues a decision, but allow for the consideration
       of new and material evidence under certain circumstances;
   •   Gradually shift certain Appeals Council functions to a newly established Decision
       Review Board; and
   •   Strengthen in-line and end-of-line quality review mechanisms at the State
       agency, reviewing official, hearing, and Decision Review Board levels of the
       disability determination process.

In addition to the Commissioner’s proposed improvements to the disability process, the
Agency is in the process of transitioning to the electronic disability folder. The electronic
disability folder allows disability claims information to be stored electronically and
transmitted between field offices, hearing offices, and Disability Determination Services
(DDS). As of August 2005, four State DDSs - Mississippi, Illinois, Hawaii, and Nevada -
have been certified to operate fully in the electronic folder. By January 2007, SSA
expects all DDSs and disability quality branches to be operating in the electronic
disability folder.

SSA is addressing the integrity of its disability programs through the Cooperative
Disability Investigations (CDI) program. The CDI program’s mission is to obtain
evidence that can resolve questions of fraud in SSA’s disability programs. SSA’s
Offices of Operations and Disability Programs, along with the Office of the Inspector
General, manage the CDI program. There are 19 CDI units operating in 17 States.
Since the program’s inception in FY 1998, CDI efforts have resulted in over $533 million
in projected savings to SSA’s disability programs and over $311 million in projected
savings to non-SSA programs. During FY 2005, CDI units saved SSA over $123 million
by identifying fraud and abuse related to initial and continuing claims within the disability
program.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                        4
                                Improper Payments
Improper payments are defined as payments that should not have been made or were
made for incorrect amounts. Examples of improper payments include inadvertent
errors, payments for unsupported or inadequately supported claims, or payments to
ineligible beneficiaries. Furthermore, the risk of improper payments increases in
programs with a significant volume of transactions, complex criteria for computing
payments, and an emphasis on expediting payments.

The President and Congress have expressed interest in measuring the universe of
improper payments within the Government. In August 2001, the Office of Management
and Budget (OMB) published the FY 2002 President's Management Agenda (PMA),
which included a Government-wide initiative for improving financial performance,
including reducing improper payments. As of the first quarter in FY 2005, OMB
implemented a PMA program initiative (Eliminating Improper Payments) specifically
targeting Agency action to reduce improper payments—and SSA was rated as making
progress in this area as of June 2005. In November 2002, the Improper Payments
Information Act of 2002 (Pub. L. No. 107-300) was enacted, and OMB issued guidance
in May 2003 on implementing this law. Under the Act, SSA must estimate its annual
amount of improper payments and report this information in the Agency's annual
Performance and Accountability Report (PAR). OMB will then work with SSA to
establish goals for reducing improper payments in its programs.

SSA issues billions of dollars in benefit payments under the Old-Age, Survivors and
Disability Insurance (OASDI) and SSI programs; and some improper payments are
unavoidable. In FY 2004, SSA issued about $522 billion in benefit payments to about
52 million people. Since SSA is responsible for issuing timely benefit payments for
complex entitlement programs to millions of people, even the slightest error in the
overall process can result in millions of dollars in over- or underpayments. In FY 2005,
SSA reported that it detected over $4 billion in overpayments.

In January 2005, OMB issued a report on Improving the Accuracy and Integrity of
Federal Payments which noted that seven Federal programs—including SSA’s OASDI
and SSI programs—accounted for approximately 95 percent of the improper payments
in FY 2004. SSA’s OASDI and SSI programs represented 10 percent of this amount.
However, this report also noted that SSA had reduced the amount of SSI improper
payments by more than $100 million since levels reported in FY 2003.

SSA Has Taken Steps to Address this Challenge

SSA has been working to improve its ability to prevent over- and underpayments by
obtaining beneficiary information from independent sources sooner and using
technology more effectively. For example, the Agency is continuing its efforts to prevent
improper payments after a beneficiary dies through the use of Electronic Death
Registration information. Also, the Agency's CDR process is in place to identify and
prevent beneficiaries who are no longer disabled from receiving payments. Additionally,


IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                     5
in FY 2005, SSA implemented eWork—a new automated system to control and process
work related CDRs—which should strengthen SSA's ability to identify and prevent
improper payments to disabled beneficiaries who are working.

SSA has worked with the OIG to prevent and recover improper payments.

   •   For the FY 2005 OIG report, Individuals Receiving Benefits Under Multiple Social
       Security Numbers at the Same Address, SSA worked with the OIG to identify and
       assess about $9.2 million in overpayments—and 6 percent of these funds were
       recovered during the audit (as of April 2005), with SSA continuing to take action
       to recover the remaining funds.

   •   In another FY 2005 OIG report, School Attendance by Student Beneficiaries over
       Age 18, we estimated SSA disbursed about $70 million in incorrect payments to
       32,839 students. SSA agreed with our recommendation to ensure that the
       overpayments are established and that subsequent collection activities are
       initiated for those payments.

We have helped the Agency reduce improper payments to prisoners and improper SSI
payments to fugitive felons. However, our work has shown that improper payments—
such as those related to workers' compensation—continue to diminish the Social
Security trust funds. For example, in the FY 2005 OIG report, The Social Security
Administration’s Clean-up of Title II Disability Insurance Cases with a Workers’
Compensation Offset, we found under- and overpayment errors totaling over
$500 million continued to exist in 110,000 workers’ compensation cases even after they
were reviewed by SSA in an effort to determine the correct payment amount.
Additionally, with the passage of SSPA, SSA has new opportunities to prevent improper
payments and new challenges in implementing provisions of the law—such as OASDI
benefits to fugitives.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                   6
 Internal Control Environment and Performance Measures
Internal control comprises the plans, methods, and procedures used to meet missions,
goals, and objectives. Internal controls help safeguard assets and prevent and detect
errors and fraud. Assessing the internal control environment is important since internal
control is a critical part of performance-based management. SSA’s internal control
environment helps its managers achieve desired results through effective stewardship
of public resources.

Another important part of performance-based management is performance
measurement. Congress, external interested parties, and the general public need
sound data to monitor and evaluate SSA’s performance. The necessity for good
internal data Government wide has resulted in the passage of several laws, including
the Government Performance and Results Act of 1993 (Pub. L. No. 103-62). The Act,
in part, requires the development of annual performance measures and goals. In
addition to the legislation calling for greater accountability within the Government, the
PMA has focused on the integration of the budget and performance measurement
processes.

One of SSA’s primary functions is the processing of disability claims. SSA is
responsible for implementing policies for the development of disability claims under the
Disability Insurance (DI) and SSI programs. Initial disability determinations under both
DI and SSI are performed by DDSs in each State in accordance with Federal
regulations. Each DDS is responsible for determining whether or not claimants are
disabled and ensuring adequate evidence is available to support its determinations. To
make proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

There are 52 DDSs located in each of the 50 States, the District of Columbia, and
Puerto Rico. SSA reimburses the DDS for 100 percent of allowable expenditures up to
its approved funding authorization. In FY 2005, SSA allocated over $1.7 billion to fund
DDS operations. Given the amount of funds allocated, adequate controls are needed to
ensure the funds are used in accordance with the applicable laws and policies, and to
meet the programs’ intended purposes.

During FY 2005, we conducted 10 DDS administrative cost audits. In 5 of the 10 audits,
internal control weaknesses were identified. The control weaknesses identified
addressed areas such as fund transfers between accounts, cash activities and physical
security. The lack of effective internal controls and proper oversight of DDS cash
management activities can result in the mismanagement of Federal resources and
increase the risk of fraud.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                      7
In the 10 DDS administrative cost audits, we reported unallowable indirect costs of over
$3,989,000, as well as $39,600 in unallowable direct costs. As a result, we concluded
that SSA’s Regional Offices needed to improve their oversight of the costs DDSs
claimed.

We audited the performance data used to measure seven of SSA’s annual performance
measures.
   •   Number of Job Enrichment Opportunities
   •   Average Processing Times for Initial Disability Claims
   •   Average Processing Times for Hearings
   •   DDS Net Accuracy Rate
   •   Percent Improvement in Agency Productivity
   •   Supplemental Security Income Aged Claims Processed Per Work Year
   •   DDS Cases Processed Per Work Year

We concluded that the data used to measure one of the seven measures was reliable.
We found the data used for another of the seven measures to be unreliable. We
concluded that the data was unreliable since the controls in place to ensure the
accuracy of the measure were not working as intended. We could not determine the
reliability of the data used for the remaining five performance measures since there
were data retention limitations for the detailed data used to calculate the performance
measure results.

SSA Has Taken Steps to Address this Challenge
The Agency has taken steps to address the internal control weaknesses, such as cash
management and physical security, identified at the DDSs we reviewed. The DDS
offices have consulted with regional SSA offices to address the issue of the transfer of
funds. SSA has instituted a process to correct any future improprieties of this kind in a
manner that will match cash draws to SSA disbursement records.

SSA has demonstrated a commitment to the production of comprehensive and accurate
data on its financial statements, annual performance plans and reports, and individual
performance measures. SSA is the only Federal agency that has received the
Association of Government Accountant’s Certificate of Excellence in Accountability
Reporting for its Performance and Accountability Report every year since the award
program began in FY 1998. Also, SSA obtained a “green” rating on the PMA Scorecard
in the areas of financial management and budget and performance integration.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                      8
    Critical Infrastructure Protection and Systems Security
The information technology revolution has changed the way Governments and
businesses operate, creating a greater reliance on computer systems. Unfortunately, in
today’s world, every computer system is a potential target. Any disruptions in the
operation of information systems that are critical to the Nation’s infrastructure should be
infrequent, manageable, of minimal duration and cause the least damage possible. The
Government must make continuous efforts to secure information systems for critical
infrastructures. Protection of these systems is essential to the operation of the
telecommunications, energy, financial services, manufacturing, water, transportation,
health care, and emergency service sectors.

SSA’s information security challenge is to understand and mitigate system
vulnerabilities. This means ensuring the security of its critical information infrastructure,
such as access to the Internet and the Agency’s networks. Since 1997, SSA has had
an internal controls reportable condition concerning its protection of information based
on weaknesses in controls over access to its electronic information, technical security
configuration standards, suitability, and continuity of systems operations. Reportable
conditions are matters that represent significant deficiencies in the design or operation
of an internal control that could adversely affect SSA's ability to meet the internal control
objectives. Access to the information, or access control, is the most important of these
factors. This reportable condition was resolved on September 30, 2005.

While protecting its critical information infrastructure, the Agency is tasked with offering
more electronic services to the public. The Expanded Electronic Government, or
e-Government, initiative of the PMA calls for the expanded use of the Internet to provide
faster and better access to government services and information. Specifically,
e-Government calls for the Agency to help citizens find information and obtain services
organized according to their needs, and not according to the divisions created by the
Agency’s organizational chart. SSA needs to ensure that the expansion of its electronic
services does not increase the risks to its systems.

Additionally, SSA must address new Homeland Security Presidential Directives (HSPD).
HSPD 7 requires all Federal departments and agency heads to identify, prioritize,
assess, remediate, and protect their respective critical infrastructure and key resources.
HSPD 12 mandates the development of a common identification ‘Standard’ for all
Federal employees and contractors.

SSA Has Taken Steps to Address this Challenge

SSA successfully addressed the key issues surrounding the reportable condition. For
example, the Agency developed and implemented configuration standards for its major
operating system platforms and software components. Further, SSA began an
extensive monitoring process to ensure that the Agency’s over 100,000 servers and
workstations were in compliance with the appropriate configuration standards. In


IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                        9
addition, SSA established and implemented access controls to ensure appropriate
segregation of duties and limited access to critical information on a need only basis.
This task was completed largely through its Standardized Security Profile Project
(SSPP). An employee’s profile is the tool used to control access to SSA’s databases.
SSPP is a full scale project begun several years ago to compare system user access
assignments to job responsibilities. SSPP involved components throughout the Agency
and the review of access to millions of sensitive records.

To prevent the reoccurrence of these issues, SSA needs to continue the procedures
that resolved the reportable condition, such as:

   •   SSA needs to update and develop new configuration standards when
       appropriate.
   •   SSA should continue monitoring the Agency’s devices for compliance with the
       configuration standards.
   •   SSA needs to continue the work of the SSPP and regularly monitor the level of
       access to significant data.

SSA took additional steps to protect its critical information infrastructure and systems
security in a variety of ways. For example, SSA’s Critical Infrastructure Protection
workgroup continuously works to ensure Agency compliance with various directives,
such as HSPDs and the Federal Information Security Management Act (FISMA) of 2002
(Pub. L. No. 107-347). To comply with HSPD 7, SSA submitted its Critical Federal
Infrastructure Protection Plan to OMB in 2004; SSA continues to work with OMB to
resolve any outstanding issues regarding its plan. The Agency recently created a
workgroup, which coordinates with other agencies and OMB to address HSPD 12.
Further, SSA routinely releases security advisories to its employees and has hired
outside contractors to provide expertise in this area.

SSA continues to improve its security program to better comply with FISMA and makes
strides towards reaching green in the PMA e-Government initiative. Some of the
specific steps the Agency has taken include:

   •   participating in Pinnacle, the Government-wide contingency test;
   •   improving its automated tool to better track security weaknesses and help
       monitor their resolution; and
   •   improving tracking of security training for SSA staff with significant security
       responsibilities.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                        10
                                 Service Delivery
One of SSA’s strategic goals is to deliver high-quality “citizen-centered” service. This
goal encompasses traditional and electronic services to applicants for benefits,
beneficiaries and the general public. It includes services to and from States, other
agencies, third parties, employers, and other organizations, including financial
institutions and medical providers. It also includes basic operational services including,
the representative payee process, managing human capital and e-Government.

The integrity of the representative payee process is a specific challenge within this area.
When SSA determines a beneficiary cannot manage his or her benefits, it selects a
representative payee who manages and solely uses the payments for the beneficiary's
needs. SSA reported that there are about 5.4 million representative payees who
manage benefits for about 6.9 million beneficiaries. In March 2004, the President
signed SSPA into law. The SSPA provides several new safeguards for those
individuals who need a representative payee, while presenting significant challenges to
SSA to ensure representative payees meet beneficiaries' needs.

During our review, Nation-wide Review of Individual Representative Payees for the
Social Security Administration (A-13-05-25006), we confirmed the existence of all
beneficiaries that were in the care of the 275 representative payees included in our
sample. We found, through personal observation and interviews, that the food, clothing
and shelter needs of most beneficiaries were being met. We also found several
representative payees did not comply with certain SSA policies. Specifically, we
determined eight payees functioned as conduit payees. Further, we found five payees
failed to report events that could have affected the amount of benefit payments the
beneficiaries received or the beneficiaries’ right to receive benefit payments. In some
instances, more than one condition may have applied to the same payee.

As of January 2005, GAO continued to identify strategic human capital management on
its list of high-risk Federal programs and operations. In addition, Strategic Management
of Human Capital is one of five Government-wide initiatives contained in the PMA. As
of June 30, 2005, SSA continued to score “green” for Human Capital on OMB’s PMA
Scorecard.

SSA is being challenged to address increasing workloads, due to the baby boom
generation retiring and entering their disability prone years, at the same time its
workforce is retiring. Improved productivity is essential for SSA to meet the increasing
workload and retirement wave challenges ahead. Technology is essential to achieving
efficiencies and enabling employees to deliver the kind of service that every claimant,
beneficiary and citizen needs and deserves.

The e-Government initiative of the PMA directs the expanded use of the Internet to
provide faster and better access to Government services and information. Specifically,



IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                      11
e-Government instructs SSA to help citizens find information and obtain information
organized according to their needs.

SSA Has Taken Steps to Address this Challenge
SSA has taken various actions regarding its representative payee process. It has
established workgroups to implement each section of SSPA related to representative
payees and has issued two reports in FY 2005 to Congress:

   •   Annual Report on the Results of Periodic Representative Payee Site Reviews
       and Other Reviews (January 2005), and
   •   Report on the Sufficiency of the Social Security Administration’s Representative
       Payee Procedures in the Prevention of Misuse of Benefits (November 2004).

SSA also issued to Congress a preliminary report from the National Academies as
required by Section 107 of SSPA. SSA contracted with the National Academies to
determine (1) the extent to which representative payees are not performing their duties
as payees in accordance with SSA standards for payees, (2) which types of payees
have the highest risk of misuse of benefits, (3) ways to reduce those risks and better
protect beneficiaries, (4) observations about the adequacy of payee’s actions, and (5)
recommendations for change or further review. The National Academies plans to
submit its final report to SSA in early 2007.

Regarding human capital, SSA reports developing and implementing competency-
based training for “front-line” employees; implementing a national recruitment strategy
to bring the “best and brightest” individuals to the Agency; and developing a Human
Capital Plan to respond to the challenge of hiring, developing and retaining a highly
skilled, high performing and diverse workforce.

According to SSA, its e-Government strategy is based on the deployment of high
volume, high payoff applications, for both the public and the Agency’s business
partners. To meet increasing public demands, SSA has aggressively pursued a
portfolio of services that enable online transactions and increase opportunities for the
public to conduct SSA business electronically in a private and secure environment.
Over the past 6 years, SSA has launched the Internet Social Security Benefit
Application and created on-line requests for Social Security Statements, replacement
Medicare cards, proof of income letters and changes of address. In FY 2005, SSA
accomplished such e-Government enhancements as releasing software to enable the
public to confidentially input data regarding their resources to determine eligibility and/or
apply for Medicare Part D subsidy, a program that will reduce out of pocket costs for
prescription drugs for those who have limited income and resources. Another
enhancement was the implementation of software to improve the usability and common
look and feel of the SSA.gov WebPages.




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                        12
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Related Office of the Inspector General Reports
APPENDIX C – Office of the Inspector General Contacts




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)
                                                                     Appendix A

Acronyms
 ALJ              Administrative Law Judge
 CDI              Cooperative Disability Investigations
 CDR              Continuing Disability Review
 DDS              Disability Determination Services
 DHS              Department of Homeland Security
 DI               Disability Insurance
 ESF              Earnings Suspense File
 FISMA            Federal Information Security Management Act
 GAO              Government Accountability Office
 HSPD             Homeland Security Presidential Directives
 IRTPA            Intelligence Reform and Terrorism Prevention Act
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 PAR              Performance and Accountability Report
 PMA              President’s Management Agenda
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSNVS            Social Security Number Verification Service
 SSPA             Social Security Protection Act of 2004




IG Statement on SSA’s Major Management Challenges (A-02-06-16050)
                                                                      Appendix B

  Related Office of the Inspector General Reports
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
                Social Security Number Integrity and Protection
Employers with the Most Suspended Wage Items in the 5-Year            October 26, 2004
Period 1997 through 2001 (A-03-03-13048)

Congressional Response Report: Follow-up of Federal Agencies’         February 28, 2005
Controls over the Access, Disclosure, and Use of Social Security
Numbers by External Entities (A-08-05-25104)

Assessment of the Enumeration at Entry Process (A-08-04-14093)        March 15, 2005

Department of Defense Wage Items in the Earnings Suspense File        March 29, 2005
(A-03-04-14041)

Social Security Number Cards Issued After Death (A-06-03-13078)       April 20, 2005

Social Security Number Misuse in the Service, Restaurant, and         April 29, 2005
Agriculture Industries (A-08-05-25023)

Reported Earnings Prior to the Issuance of a Social Security Number   August 5, 2005
(A-03-04-14037)

Impact of Nonimmigrants Who Continue Working After Their              September 9, 2005
Immigration Status Expires (A-08-05-15073)

                      Management of the Disability Process

Social Security Administration’s Ticket to Work Program               December 20, 2004
(A-02-03-13079)

Congressional Response Report: Review of Milwaukee Office of          August 2, 2005
Hearings and Appeals (A-13-05-25140)

The Social Security Administration’s Match of Disability Insurance    August 5, 2005
Records with Texas Workers’ Compensation Payment Data
(A-06-05-15024)




  IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                B-1
     Management Challenge Area, Report Title and                                 Report
           Common Identification Number                                          Issued
Follow-up of Pending Workers’ Compensation: The Social Security            September 9, 2005
Administration Can Prevent Millions in Title II Disability
Overpayments (A-08-05-25132)

                                   Improper Payments

The Social Security Administration’s Clean-Up of Title II Disability       October 14, 2004
Insurance Cases with a Workers’ Compensation Offset
(A-04-03-13042)

Social Security Administration’s Controls Over the Title XVI               October 25, 2004
Overpayment Waiver (A-06-03-13077)

School Attendance by Student Beneficiaries Over Age 18                     January 31, 2005
(A-09-04-14013)

Representative Payee Reports Indicating Excess Conserved Funds             March 28, 2005
for Supplemental Security Income Recipients (A-13-03-13065)

Individuals Receiving Multiple Auxiliary or Survivors Benefits             March 28, 2005
(A-01-05-25015)

Disabled Supplemental Security Income Recipients with Earnings (A-         April 11, 2005
01-04-14085)

The Social Security Administration’s Controls over the Suspension of       April 12, 2005
Title XVI Overpayment Collection Efforts (A-04-04-24029)

Individuals Receiving Benefits under Multiple Social Security              April 29, 2005
Numbers at the Same Address (A-01-05-25002)

Social Security Administration’s Administrative Finality Rules         (A- July 26, 2005
01-04-24024)

Follow-up: The Social Security Administration Can Recover Millions         August 24, 2005
in Medicare Premiums Related to Retirement or Disability Payments
Made After Death (A-08-05-15112)

          Internal Control Environment and Performance Measures

Administrative Costs Claimed by the South Carolina Disability              October 7, 2004
Determination Services (A-04-04-14053)




  IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                        B-2
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
Performance Indicator Audit: Processing Time (A-02-04-14072)          October 25, 2004

Inspector General Statement on the Social Security Administration’s   November 10, 2004
Major Management Challenges (A-02-05-15092)

Top Issues Facing Social Security Administration Management –         November 10, 2004
Fiscal Year 2005 (A-44-05-25111)

Performance Indicator Audit: Disability Determination Services Net    November 10, 2004
Accuracy Rate – Allowances and Denials Combined
(A-15-04-14074)

Oversight of the Fiscal Year 2004 Financial Statement Audit           November 10, 2004
(A-15-04-34084)

Performance Indicator Audit: Productivity (A-15-04-14073)             November 17, 2004

Performance Indicator Audit: General Observations                     January 6, 2005
(A-15-05-25096)

Administrative Costs Claimed by the South Dakota Disability           February 25, 2005
Determination Services (A-15-03-13060)

Indirect Costs Claimed by the Arizona Disability Determination        March 28, 2005
Services (A-09-04-14010)

Administrative Costs Claimed by the Ohio Bureau of Disability         May 27, 2005
Determination (A-05-04-14028)

Administrative Costs Claimed by the New Hampshire Disability          May 27, 2005
Determination Services (A-01-05-15012)

Administrative Costs Claimed by the Iowa Disability Determination     June 7, 2005
Services (A-07-04-14087)

Indirect Costs Claimed by the Oregon Disability Determination         June 7, 2005
Services (A-09-05-15001)

Administrative Costs Claimed by the Alaska Disability Determination   July 7, 2005
Services (A-09-05-15025)

Performance Indicator Audit: Job Enrichment Opportunities             August 12, 2005
(A-02-05-15119)



  IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                  B-3
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
Administrative Costs Claimed by the Delaware Disability               August 19, 2005
Determination Services (A-13-05-15011)

Administrative Costs Claimed by the Pennsylvania Bureau of            August 31, 2005
Disability Determination (A-15-04-14080)

            Critical Infrastructure Protection and Systems Security

The Social Security Administration’s Compliance with the Employee     October 14, 2004
Retirement Income Security Act (A-14-04-24090)
                                                                      August 4, 2005
State Disability Determination Services’ Removal of Sensitive
Information from Excessed Computers (A-14-05-15063)

                                     Service Delivery

Family Services, Inc., of Charleston, South Carolina, A Fee-for-      October 1, 2004
Service Representative Payee for the Social Security Administration
(A-13-04-14002)

Management of Allegations by the Social Security Administration’s     October 15, 2004
Office of Systems (A-13-04-14047)

Seattle Mental Health Institute – An Organizational Representative    October 26, 2004
Payee for the Social Security Administration (A-09-04-14015)

The Effects of Staffing on Hearing Office Performance                 March 30, 2005
(A-12-04-14098)

Social Security Administration’s Controls for Concurrently Entitled   April 11, 2005
Beneficiaries with Representative Payees (A-05-04-13058)

Nation-wide Review of Individual Representative Payees for the        July 26, 2005
Social Security Administration (A-13-05-25006)

Office of Hearings and Appeals Mega-site Information and Bar-         August 25, 2005
Coding Systems (A-12-05-15085)




  IG Statement on SSA’s Major Management Challenges (A-02-06-16050)                   B-4
                                                                        Appendix C

Office of the Inspector General Contacts
Walter Bayer, Director                         Social Security Number Integrity and
Kim Byrd, Director                             Protection

Mark Bailey, Director                          Management of the Disability Process

Paul Davila, Director                          Improper Payments
Judith Oliveira, Director

Tim Nee, Director                              Internal Control Environment and
Victoria Vetter, Acting Director               Performance Measures

Kitt Winter, Director                          Critical Infrastructure Protection and
                                               Systems Security

Jim Klein, Director                            Service Delivery
Shirley Todd, Director


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-3218.
Refer to Common Identification Number A-02-06-16050.
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
